n
AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 18X
DANIEL KRISTOF LAK, Esquire,
Petitioner,
v.
STATE OF CALIFORNIA, et al.
Respondents.
X
STATE OF CALIFORNIA

)

COUNTY OF ORANGE

)

I, Daniel Kristof Lak, being duly sworn according to law and being over the
age of 18, upon my oath depose and say that:
I am the Petitioner, Pro Se, in the above-captioned matter.
th
That on the 16 day of February, 2021,1 served the within Petition for Writ
of Certiorari in the above-captioned matter upon:
Shirley R Sullinger
CAAG - Office of Attorney General
California Department of Justice
300 South Spring Street Suite 1702
Los Angeles, CA 90013
213-269-2000
Email: shirley.sullinger@doj.ca.gov
William Leo Haluck
Koeller Nebeker Carlson & Haluck LLP
3 Park Plaza #1500, Irvine, CA 92614-8557
Phone Number: (949) 864-3400
Email: haluck@knchlaw.com

4

1

received

FEB 2 h 2021

by delivering one copy of the same, addressed to each individual respectively, and
enclosed in a post-paid, properly addressed wrapper, to the commercial carrier:
United Parcel Service, for overnight delivery.
That on the same date as above, I sent to this Court a copy of the same,
Petition for Writ of Certiorari, and a three hundred dollar filing fee check through
the commercial carrier: United Parcel Service, postage prepaid, for overnight
delivery.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
}f February, 2021

Executed on this 16th,

^l5aniel Kristof ^ik

Sworn to and subscribed before me this 16th day of February, 2021.
w

LucaS
Name:
Notary Public State of California
No.
____________
Qualified in Orange County
Commission Expires ""S-dy
"2oZ |

KENNY LUCAS
Commission # 2203841
Notary Public-California

£
rg

